Office of Inspector General
    Audit Report



DOT DOES NOT FULLY COMPLY WITH
REQUIREMENTS OF THE REDUCING
   OVER-CLASSIFICATION ACT
      Department of Transportation

       Report Number: FI-2013-136
     Date Issued: September 19, 2013
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT Does Not Fully Comply with                                               Date:    September 19, 2013
           Requirements of the Reducing Over-Classification
           Act
           Department of Transportation
           Report Number FI-2013-136

  From:    Louis King                                                                        Reply to
                                                                                             Attn. of:   JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Assistant Secretary for Administration
           Federal Aviation Administrator

           During this era of heightened national security concerns, getting the right
           information to the right people requires accurate and accountable application of
           classification 1 standards. The Department of Transportation (DOT) and other
           Federal departments must first react internally to information regarding security
           threats, and then clearly communicate the status and implications of the threats to
           stakeholders. As the 9/11 Commission observed, the over-classification 2 of
           information interferes with accurate information sharing, increases the cost of
           information security, and limits stakeholders and public access to information.

           In 2010, Congress passed the Reducing Over-Classification Act. 3 The Act requires
           Federal agencies that classify information to administer programs promoting
           compliance with laws regarding the proper use of classification and to reduce
           over-classification. The Act also requires the inspectors general of departments



           1
             The Federal Government deems that certain information is sensitive and requires secrecy based on national security.
           Classification is the act of assigning a level of sensitivity to this information. The Federal Government established three
           levels of classification: Top Secret, Secret and Confidential.
           2
             Over-classification occurs when a document is assigned a level of classification that is higher than needed. For
           example, a document that requires a secret classification but is designated top secret would be considered over-
           classified.
           3
             The Act, P. L. 111-258, requires the Secretary of Homeland Security to develop a strategy to prevent the over-
           classification of homeland security and other information and to promote the sharing of unclassified homeland security
           and other information.
                                                                                                                      2


authorized to make original classifications, 4 in consultation with the National
Archives and Records Administration’s Information Security Oversight Office
(ISOO), 5 to conduct two evaluations of their departments’ classification programs
by September 30, 2016, with the initial evaluation due September 30, 2013. To
meet this requirement, we conducted an audit to (1) determine whether DOT has
implemented effective policies and procedures for classification of information
that comply with Federal policy and regulations, and (2) identify any practices that
may lead to continuous misclassification of information.

We conducted this review between January and September 2013 in accordance
with generally accepted Government auditing standards. We interviewed
Department officials and reviewed Federal and departmental policy and
regulations. We reviewed a statistical sample of 49 secret and confidential
documents from a universe of 248 that the Department produced during 2010,
2011, and 2012 to test compliance with regulations. See Exhibit A for more details
on our scope and methodology.

RESULTS IN BRIEF
Not all DOT classification related policies and procedures are effective or comply
with Federal requirements, including ISOO’s regulation. Specifically, the Office
of the Secretary of Transportation (OST) did not conduct inspections of all areas
where classified information is processed and stored. It also did not effectively
review document markings. 6 In our statistical sample of 49 of 248 products
classified as Confidential or Secret we found 35 that were not correctly marked.
Based on our findings, we estimate 7 that 180, or 72.4 percent, of the Department’s
Confidential and Secret products are marked incorrectly. DOT officials noted that
ISOO and internal policies were not clear as to whether or not certain documents
required marking. In addition, the statistics on the number of classified documents
produced and inspections conducted that OST reported to the ISOO contained
inconsistencies. For example, in 2011, FAA reported 33 self-inspections to OST,
but OST reported only one FAA self-inspection to ISOO; however, in 2012, OST
reported all 48 FAA self-inspections. Last, FAA has not updated its order on
safeguarding classified national security information since March 13, 2006. Both
DOT and FAA did not assign adequate resources to reporting and policy updating.

4
   Original classification authority refers to an individual authorized in writing, either by the President, the Vice
President, or agency heads or other officials designated by the President, to classify information in the first instance.
Derivative classification is the incorporating, paraphrasing, restating, or generating in new form information that is
already classified, and marking the new material consistently with the classification markings that apply to the source
information.
5
  ISOO is responsible to the President for policy and oversight of the Governmentwide security classification system.
6
  The Federal Government requires documents or other media containing classified information to be clearly identified
or “marked.” These markings should be conspicuous, and immediately apparent to alert holders of the classified
information, among other things.
7
  Our estimate has a margin of error of +/- 10.3 percentage points at the 90 percent confidence level.
                                                                                                                         3


Without comprehensive self-inspections, adequate markings, accurate reporting,
and up-to-date policies, the Department is at increased risk that documents will not
be properly classified or sufficiently protected.

We could not reach a conclusion as to whether there are practices that lead to
continuous misclassification. For our sample of 49 documents, we did not have the
necessary security clearances to review the sources for 33, or 67 percent, of our
sampled items. 8 However, we reviewed the remaining 16, or 33 percent, and did
not find any instances of misclassification. The Department has requested these
clearances from the appropriate agency. Upon receipt of the clearances, we will
complete this work.

We are making a series of recommendations for improving DOT’s oversight of its
Classified National Security Information program, and its compliance with the
Reducing Over-Classification Act and the ISOO regulation.

BACKGROUND
In December 2009, the President signed Executive Order 13526 (EO), which
updated previous expectations regarding the uniform system for classifying,
safeguarding, and declassifying national security information. The EO specifies
requirements for Federal agencies that classify information, including details on
identification and marking requirements. Each classified document must be
marked at the top and bottom of each page with its classification level—
Confidential, Secret, or Top Secret. A derivative document—which is classified
because the source of its information is another classified document—must be
marked with certain original source document information, including the identity
of the individual that created the document and the date of declassification.

In 2010, the ISOO issued its regulation 9 implementing EO 13526. The rule
establishes guidance to Federal agencies on original and derivative classification,
including markings and safeguarding of documents, downgrading classification
levels, declassification, and fundamental classification guidance reviews. The rule
also calls for agencies to conduct regular reviews of agencies’ original and
derivative classification actions and the physical protection and storage of
classified materials. The regulations also state that self-inspections should cover
original and derivative classifications, safeguarding, security violations, security
education and training, as well as management and oversight of the program.



8
  To access a classified document, an individual needs to possess a security clearance at the level of the classification of
the document or higher. For example, to access a document classified as “secret” requires a secret or top secret
clearance.
9
  32 CFR Parts 2001 and 2003, Classified National Security Information.
                                                                                                                     4


OST oversees most of the Department’s operating administrations’ classified
information security processes and is responsible for the self-inspection program.
In its policy, DOT specifically delegates authority to FAA to administer its own
program under OST’s oversight. DOT’s Assistant Secretary for Administration is
designated as the Senior Agency Official for classification management. 10 DOT
has three areas with dedicated space designed for secure storage of classified
information.

The Department has eight officials with original classification authority for the
Secret classification level, including the Secretary of Transportation, Deputy
Secretary of Transportation, FAA Administrator, and Maritime Administrator. 11
OST and some operating administrations, including MARAD, and FAA, perform
derivative classification up to the Top Secret level. From 2011 to 2012, the
number of derivative products that DOT produced increased from 88 to 1737. 12
The Department expects similar numbers of derivative products in the future.

ISOO’s regulation also describes requirements for agencies’ annual reporting to
ISOO. Each agency that creates or safeguards classified information must annually
report to the Director of ISOO statistics related to its classification program,
including the number of original and derivative documents produced, and the
number of self-inspections completed. FAA collects statistics on its classified
documents and reports them to OST. Subsequently, OST collects statistics from all
DOT’s operational administrations and reports them to the ISOO.

DOT’S POLICIES AND PROCEDURES ARE NOT SUFFICIENTLY
EFFECTIVE TO ENSURE PROPER MARKING AND INSPECTIONS
OF CLASSIFIED DOCUMENTS
DOT’s policies and procedures are not sufficiently effective and do not fully
comply with the EO and ISOO’s regulations. Specifically, DOT’s self inspection
program does not provide adequate coverage of either documents or physical
locations; many documents were not properly marked; the statistics that OST
reports to ISOO contained inconsistencies; and FAA’s policy had not been
updated to comply with EO 13526.

DOT’s Self-Inspection Program Lacks the Necessary Coverage
DOT’s self-inspection procedures are not adequate and do not fully comply with
the EO’s requirements. In its annual inspections, OST only selectively reviews

10
   In accordance with 49 CFR Part 8.
11
   The other four original classification authorities are the Assistant Secretary for Administration, OST’s Director of
Security and Director of Intelligence, Security and Emergency Response (S-60), and FAA’s Assistant Administrator for
Security and Hazardous Materials.
12
   Due primarily to FAA’s expanded production of classified documents as a result of creating a threat intelligence
organization in March 2012.
                                                                                   5


Operating Administrations for physical security infractions such as leaving
security containers unlocked. In 2010, 2011, and 2012, OST did not review any of
the 206 derivatively classified documents that S-60 and MARAD produced, and
did not inspect the three primary locations for secure storage of classified
information. DOT officials noted that they did not have sufficient resources to
effectively conduct self-inspections. During our audit, we identified only one
person assigned to this task.

OST Officials informed us that in 2013, OST began a more comprehensive self-
inspection program that includes inspecting the Crisis Management Center, S-60
Intelligence Division, and MARAD’s Command Center. Officials indicated that
once that initial review is complete, they will share the results with us. Without
comprehensive self-inspections, the Department does not know if documents are
properly classified, and protected.

The Department’s Classified Documents Were Not All Correctly
Marked
We found that derivatively classified documents did not follow the control
marking requirements. ISOO regulations require markings to include the
identification of the person classifying the document, a listing of source materials,
and the date or event for declassification. We reviewed 49 documents at the
Confidential or Secret level, including one original classified document and 48
derivative ones, and found that 35 of the derivative documents were missing
required markings. Based on our sample, we estimate that 180, or 72.4 percent, of
248 of the Department’s Confidential or Secret products are marked incorrectly.
Inadequately marked documents do not alert users to their sensitivity and increase
the risk that documents will be compromised.

OST and FAA officials told us they did not properly mark these derivative
products because they did not intend to release the documents outside the
Department and some documents, such as briefings and threat analyses, were
originally considered working papers—to be destroyed within 180 days—but
operational issues required that the products be kept for a longer period.
Furthermore, OST officials noted that ISOO or internal policies did not specify
that electronic versions of briefings never intended for distribution or final
intelligence production needed to be fully marked. OST and FAA also told us that
they have since changed their processes to include briefings and threat analyses.

OST’s Reports to ISOO Are Not Accurate
OST does not report accurate statistics to ISOO, and therefore, does not comply
with ISOO’s reporting requirements. We found inconsistencies between the
Department’s and FAA’s statistics. For example, for 2011, FAA reported 33 self-
inspections to OST, but OST reported only one FAA self-inspection to ISOO.
                                                                                  6


However, during 2012, DOT reported all 48 FAA self-inspections. Furthermore,
while OST reported 1,900 derivative documents over the three year period, we
found an additional 207 classified documents produced in the same period that
OST did not report to ISOO.

We also found inconsistent applications of ISOO’s requirements and definitions of
what annual reports should include. For example, ISOO requires agencies to report
original emails regarding derivative classification actions. However, some agency
staff informed us that counting and reporting email as well as limitations on the
email software they are required to use create an administrative burden on analysts
and their ability to meet this requirement. As a result, they did not report emails.

Because of these inaccurate statistics, ISOO does not have a reliable basis for
evaluating how well DOT safeguards classified materials, and cannot report
reliable information on the status of the Governmentwide classified information
program.

FAA’s Policy Is Outdated
FAA’s Order 1600.2E, Safeguarding Classified National Security Information
(March 2006), has not been updated to address and comply with the EO as
required by ISOO. For example, the existing order does not contain provisions
relating to complying with ancillary marking requirements of derivative classifier
identity and declassification date. FAA told us policy revisions were impacted due
to organizational changes and resources. Lack of up-to-date policies increases the
risk that documents will not be properly classified.

WE COULD NOT CONCLUDE WHETHER THERE ARE PRACTICES
THAT LED TO CONTINUOUS MISCLASSIFICATION

Because the necessary security clearances are pending, we could not complete our
review of supporting documentation and hence cannot definitively conclude at this
time whether practices exist that would lead to continuous misclassification.
Collectively, we possessed clearances that allowed us to review most levels of
classified information. However, a significant portion of the information we
needed to access to accomplish this objective was classified beyond our level of
clearance. We worked with the Department to request the necessary clearance and
access. The Department has processed our request and forwarded it to the
responsible agency. We are awaiting the response from this agency. Within two
months of receiving this response, if favorable, we will complete our review of
supporting documentation to determine if there are practices that contribute to
continuous misclassification.
                                                                                7


Our sample of 49 classified documents included one originally classified
document and 48 that contained information that was derived from classified
sources. To determine whether these derivative documents were properly
classified, we needed to review the source document used to create the derivative.
We could not perform this review for 33 documents—which represents 67 percent
of our sample—since they were derived from sources that were classified above
our level of clearance. For the remaining 15 and the originally classified
document, which represent 33 percent of our sample, we completed our review
and found no instances of misclassification.

CONCLUSION
Classification of sensitive information is crucial to protect national security,
transportation infrastructure and the public. Effective processes to identify,
manage, and control classified information must be in place to make the
information available only to those who need it, prevent over classification, and
comply with Federal requirements. DOT has not sufficiently implemented policies
or processes to conduct self-inspections, ensure proper classification markings,
and accurately report classified information statistics to the ISOO. Until DOT
takes additional actions to enforce compliance with Federal requirements, it will
be unable to ensure that national security information is properly managed.

RECOMMENDATIONS
We recommend that DOT’s Assistant Secretary for Administration:

1. Take steps to develop a more comprehensive self-inspection program that will
   include greater coverage of derivative documents and inspections of spaces
   dedicated to storage of classified documents (e.g. the Crisis Management
   Center).

2. Seek additional resources to complete comprehensive self inspections, and to
   prepare accurate reports to the National Archives and Records
   Administration’s Information Security Oversight Office.

3. Take steps to implement policies and procedures that identify what documents
   need to be marked and how, and validate that these policies and procedures are
   consistently applied throughout the Department.

4. Establish a procedure and communicate to the OAs clear definitions and
   requirements for ensuring that annual reporting to the National Archives and
   Records Administration’s Information Security Oversight Office is accurate
   and complete.
                                                                                8


We recommend that the Federal Aviation Administrator, in consultation with the
Assistant Secretary for Administration:

5. Update FAA’s policy to conform to the requirements of EO 13526.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided DOT with our draft report on August 27, 2013, and received its
response on September 12, 2013. DOT’s response is included in its entirety in the
appendix to this report. In its response, DOT concurred with all recommendations
in the report, and requested that recommendation 4 be closed with the issuance of
the report based on actions taken.

We agree, and have closed the recommendation.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request, that DOT provide our office with documentation that its
planned actions are complete within 10 days of their completion. Until we receive
this information, we consider recommendations 1, 2, 3, and 5 are open until
planned actions are completed and recommendation 4 is resolved and closed.

We appreciate the courtesies and cooperation of Department of Transportation and
Federal Aviation Administration representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1407 or Joann Adam,
Program Director, at (202) 366-1488.

                                        #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                9



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from January 2013 through September 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives. For our second objective—identify practices that
resulted in continuous misclassification—our scope was limited to
Confidential and Secret level classified documents due to limitations of our
security clearances. Because the documents we were able to review
represented only 33 percent of our sample, we were unable to conclude as
to whether such practices exist. Appropriate higher level security clearances
were requested and are being processed by the appropriate Agency.

We reviewed DOT and its Operating Administrations’ classified
information, policies, procedures, rules, regulations, and management
practices. We also interviewed officials with original and derivative
classification authority and DOT officials responsible for managing the
Classified National Security Information program.

We coordinated with other IG offices and with the Information Security
Oversight Office via meetings and interviews. We followed the
methodology prescribed in “A Standard User’s Guide for Inspectors
General Conducting Evaluations Under Public Law 111-258, the Reducing
Over-Classification Act”. The guide was prepared on behalf of the Council
of Inspectors General on Integrity and Efficiency.

We received a list of 1,900 reported classified documents from OST.
Because of the clearance level required for some of the documents or the
low risk level, we only included 225 documents in our universe. We
stratified the universe by organization, year, type of document, and
clearance level and selected a simple random sample from each stratum for
a total sample of 35 documents to review. While we were conducting our
review, we also found 207 classified documents that were not on the
reported list from OST. Once again, because of clearance level, we were
only able to select a stratified sample of 14 from 23 of the 207 documents.
In order to make our projections, we combined the two samples so that our
final sample size was 49 classified documents out of a universe of 248
documents that were reported or found to be classified Confidential or
Secret.



Exhibit A. Scope and Methodology
                                                                 10




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Joann Adam                              Program Director

Lissette Mercado                        Former Project Manager

LaKarla Lindsay                         Senior Auditor

James Mullen                            Information Technology
                                        Specialist

Meghann Noon                            Auditor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Susan Neill                             Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                         11



APPENDIX. AGENCY COMMENTS




While the Office of Inspector General (OIG) review identified a number of issues
predominantly with ancillary markings now required on classified documents, the OIG
did not identify any specific instances of compromised classified information, or specific
security vulnerabilities resulting from the types of issues identified.
Up until recently the Department has produced virtually no original classifications over
the last 10 years. The vast majority of classification work is derivative and is used almost
entirely for purely internal documents. Governmentwide requirements have evolved as a
result of the latest executive order, particularly with regard to ancillary markings that are
applied to documents to indicate who completed the original classification, when the
information was classified, and when it should be declassified. Initially, there was some
confusion government wide as to the applicability of this guidance to derivative
classifications. Once these issues were clarified the Department immediately modified its
processes and since that time has been ensuring that markings are clear and comply fully
with the latest requirements.
RECOMMENDATIONS AND RESPONSES
Following are the recommendations included in the OIG draft report. The first four
include responses from the Office of the Secretary, and the response to recommendation
5 is provided by FAA in consultation with OST in this consolidated Departmental
response
Recommendation 1: Take steps to develop a more comprehensive self-inspection
program that will include greater coverage of derivative documents and inspections of
spaces dedicated to storage of classified documents.




Appendix. Agency Comments
                                                                                        12


Response: Concur. The Office of Security, working with other OST offices, has already
taken steps to ensure the self-inspection program is as comprehensive as possible. For
example, this year our self-inspections are on track to complete close to 100% of the
Department, a rate not achieved in recent years. We have also acknowledged a need to
include reviews of more classified documents than in the past as well as visits to high
volume areas. The Office of Security will ensure these processes are captured in updated
guidance by October 15, 2013

Recommendation 2: Seek additional resources to complete comprehensive self-
inspections, and to prepare accurate reports to the National Archives and Records
Administration’s Information Security Oversight Office.
Response: Concur. OST will seek additional resources for performing the
comprehensive self-inspections and reporting in fiscal year 2016. This action will be
completed by February, 2014.

Recommendation 3: Take steps to implement policies and procedures that identify what
documents need to be marked and how, and validate that these policies and procedures
are consistently applied throughout the Department
Response: Concur. OST will re-verify that its existing policy and procedures for
identifying what documents need to be marked and how are fully compliant with current
Governmentwide requirements. Once confirmed, OST will reemphasize these
procedures and the importance of adhering to them in a memorandum. Finally, we intend
to convene a training/question and answer session with those individuals who perform the
vast majority of marking in the Department to ensure the procedures are well understood.
We plan to complete these actions by December 31, 2013.

Recommendation 4: Establish a procedure and communicate to the OAs clear
definitions and requirements for ensuring that annual reporting to the National Archives
and Records Administration’s Information Security Oversight Office (ISOO) is accurate
and complete.

Response: Concur. Based on discussions with the OIG during the course of its work,
OST took immediate action to communicate to all DOT components clear definitions and
requirements for ensuring annual reporting to ISOO is accurate and complete. These
directions are included in a memorandum date February 13, 2013, provided separately to
the OIG. Consequently we ask that this recommendation be considered closed upon
issuance of the OIG report.

Recommendation 5: Update FAA’s policy to conform to the requirements of EO 13526.

Response: Concur. While the vast majority of the requirements are included in FAA’s
2006 Order, FAA recognized the need to provide full compliance with current
requirements, and issued a draft revised order in April 2013. This draft order is
proceeding through FAA’s comprehensive clearance process, and is expected to be issued
by December 31, 2013.




Appendix. Agency Comments
